No. 20-443

 

In THE
Supreme Court of the United States

UNITED STATES OF AMERICA,

Petitioner,
Vv.

DZHOKHAR A, TSARNAEV,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the First Circuit

BRIEF OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,999 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

 

Wilson-Epes Printing Co., Inc.
